                                     NATIONAL SCIENCE FOLINDATION
                                          4201 WILSON BOULEVARD
                                         ARLINGTON, VIRGINIA 22230




            OFFICE OF
        INSPECTOR GENERAL


         MEMORANDUM

         Date:      August 14, 1996
         To: '      Case File No. I960200 12
                                                 I
                                                 1
                                                               -   -




         -
         Through:   '-~~ecial                Agent-i                   Investigations Section
                                                                                                     -- - .--
         From: 4 - 4
                                                                                                                --


         Re:        Case Resolution       -




                                                                                            -
    I
                 We received an allegation on February 15, 1996 that       l P ) and-
                former NSF staff members, had accepted positions with Then    r-!
         right before and right after it was awarded a $20 million dollar NSF contract for
                           . The source also alleged that other dealings with The
                 were suspect. Thel-r                is a subcontractor for -which
         received the contract.
                 Contracts,-Policy, & Oversight (CPO) also received vague allegations that
         ""' was assisted by individuals at NSF in writing the proposal. We reviewed
I        technical proposals submitted by -,      which included a letter written by-
         on behalf of
                                              r\
                                                     '-Y In this letter he expresses
         commitment to assist in the b       i     d       .

         Findings:

         Mr.         and Ms.-      began working f o r l ) in August 1994 and January 1996,
         respectively. A review of the contract and proposal for-          did not reveal any
         communication between Mr.-            Ms.-        and NSF staff responsible for the
         developing and issuing of t h e a n d technical review of the proposal. CPO said
                 was chosen because of its sound technical proposal and for cost reasons, and
         had no knowledge of anyone helping-write          or develop the proposal.

         Conclusions:

                 A review of q e c h n i c a l proposal and contract file and interviews with
         NSF staff members involved in this procurement revealed no evidence of improper
         influence during the procurement process. In addition, there is no evidence that
               t received help from NSF staff during this process. Therefore, this case is closed.
